         Office of Inspector General




September 28, 2006
BRENDA L. BAUGH
MANAGER, DALLAS BULK MAIL CENTER

SUBJECT:      Audit Report– Mail Processing Internal Controls at the Dallas Bulk Mail
              Center (Report Number NO-AR-06-009)

This report presents the results of our audit of the Dallas, Texas, Bulk Mail Center
(Dallas BMC) located in the Southwest Area (Project Number 06YG006NO001). Our
objective was to assess internal controls over mail processing at the Dallas BMC. The
U.S. Postal Service Headquarters requested the review, and we conducted it in
cooperation with the Southwest Area.

Generally, internal controls over mail processing at the Dallas BMC were in place and
effective. We found that the Dallas BMC had internal controls in place for recording van
reloads; reporting bundle breakage and other mailing deficiencies; securing information
maintained on computer workstations; recycling materials; and conducting semiannual
safety and health inspections. However, the Dallas BMC could strengthen controls over
mail reporting, timekeeping, color coding, and preventive maintenance. Weak internal
controls in these areas may lead to excessive costs, delayed mail, and inaccurate
management decisions.

We made six recommendations in the report. Management agreed with our findings
and recommendations and has initiatives in progress, completed, or planned addressing
the issues in this report. Management’s comments and our evaluation of these
comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Robert J. Batta,
Director, Network Operations - Processing, or me at (703) 248-2300.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments
cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Ellis A. Burgoyne
    David E. Williams
    Jamie O. Fuentes
    William C. Rucker
    Steven R. Phelps
Mail Processing Internal Controls at the                                         NO-AR-06-009
 Dallas Bulk Mail Center




                                     TABLE OF CONTENTS

 Executive Summary                                                                        i

 Part I

 Introduction                                                                             1

     Background                                                                           1
     Objective, Scope, and Methodology                                                    3
     Prior Audit Coverage                                                                 3

 Part II

 Audit Results                                                                            5

     Assessment of Mail Processing Internal Controls at the Dallas Bulk Mail
                                                                                          5
     Center
     Recommendations                                                                    13
     Management’s Comments                                                              14
     Evaluation of Management’s Comments                                                14

 Appendix A. Southwest Customer Service Districts by Three-Digit
                                                                                        15
             ZIP Code Area
 Appendix B. Management’s Comments                                                      16

 Illustrations

  Illustration 1: Bulk Mail Center Locations                                              1
  Illustration 2: Delayed mail sacks on-hand since June 25, 2006, that had not
                                                                                          6
                  been reported by June 28, 2006, in webMCRS
  Illustration 3: Delayed mail parcels on-hand since June 26, 2006, that had
                                                                                          7
                  not been reported by June 28, 2006, in webMCRS
  Illustration 4: Employee time cards from all three tours were unsecured and
                                                                                          8
                  not under management control
  Illustration 5: June 29, 2006: Container not properly color-coded                      9
  Illustration 6: June 29, 2006: Several pallets of mail not color-coded                10
  Illustration 7: Parcel Sorter Container Loaders were in poor working
                  condition, resulting in many that could not be placed in a tilted     11
                  position
  Illustration 8: Loose mail found on April 29, 2006, that had not been
                  retrieved within 24 hours, indicating loose mail searches were        12
                  not conducted as required
Mail Processing Internal Controls at the                                              NO-AR-06-009
 Dallas Bulk Mail Center


                                    EXECUTIVE SUMMARY
 Introduction                    The U.S. Postal Service Office of Inspector General (OIG)
                                 assessed internal controls over mail processing at the
                                 Dallas Bulk Mail Center (BMC), located in the Southwest
                                 Area. U.S. Postal Service Headquarters requested the
                                 review, which the OIG conducted in cooperation with the
                                 Southwest Area.

 Results in Brief                Generally, internal controls over mail processing at the
                                 Dallas BMC were in place and effective. The Dallas BMC
                                 had internal controls in place for recording van reloads,
                                 reporting bundle breakage and other mailing deficiencies,
                                 securing information maintained on computer workstations,
                                 recycling materials, and conducting semiannual safety and
                                 health inspections. However, the Dallas BMC could
                                 strengthen controls over mail reporting, timekeeping, color
                                 coding, and preventive maintenance. During the audit,
                                 BMC management developed an action plan to address
                                 these internal control deficiencies.

                                 Handbook F-23, Accounting Policy Reference, dated
                                 August 2004, Section 2-9, states the Postal Service is
                                 responsible for establishing and maintaining a system of
                                 management and accounting controls. The Postal Service
                                 also has established criteria for specific internal controls in
                                 its mail processing policies.

                                 These control weaknesses primarily occurred because of
                                 insufficient and inconsistent supervision due to high
                                 management turnover. These deficiencies may lead to
                                 excessive costs, delayed mail, and inaccurate management
                                 decisions.

 Summary of                      We recommended the Manager, Dallas Bulk Mail Center:
 Recommendations                 ensure the web Mail Condition Reporting System shows the
                                 correct amount of delayed mail; control employee time
                                 cards; record employees’ time worked in the proper
                                 operation numbers; and ensure that employees’ base
                                 operations numbers are correctly captured. We also
                                 recommended the manager: train employees and
                                 supervisors in time recording procedures; color-code all
                                 Standard Mail®; develop and follow a preventive
                                 maintenance schedule for mail processing equipment; and
                                 conduct loose mail searches.


                                                   i
Mail Processing Internal Controls at the                                             NO-AR-06-009
 Dallas Bulk Mail Center


 Summary of                      Management agreed with our findings and
 Management’s                    recommendations. Management began corrective actions
 Comments                        during the audit to address mail condition reporting,
                                 security, timekeeping, color-coding, maintenance and loose
                                 mail. They also plan to implement a follow-up program to
                                 ensure correction of the identified internal control
                                 deficiencies. Management’s comments, in their entirety, are
                                 included in Appendix B.

 Overall Evaluation of           Management’s comments are responsive to our
 Management’s                    recommendations. Management’s actions, taken or
 Comments                        planned, should correct the issues identified in the report.




                                                  ii
Mail Processing Internal Controls at the                                                                    NO-AR-06-009
 Dallas Bulk Mail Center



                                               INTRODUCTION
    Background                      Bulk Mail Centers (BMC) are highly mechanized mail
                                    processing plants that are part of the National Bulk
                                    Mail System. These facilities distribute Parcel Post®,1
                                    Standard Mail®,2 and Periodicals.3 The U.S. Postal
                                    Service developed a bulk mail network in the 1970s
                                    to maintain its share of the parcel market and built
                                    21 plants. (See Illustration 1 below.)

                            Illustration 1: Bulk Mail Center Locations




                                    In fiscal year (FY) 2005, the Dallas BMC ranked as the
                                    second largest facility in the BMC network in mail volume
                                    and workhours. In FY 2005, the Dallas BMC processed
                                    over 219 million total handling pieces and used
                                    approximately 1.9 million workhours. The Dallas BMC is
                                    located in the Southwest Area and serves numerous Zip
                                    Codes in five states. (See Appendix A.)
1
  Parcel Post is mail that does not meet the mail processing category of letter-size mail or flat-size mail. It is usually
enclosed in a mailing container such as a carton.
2
  Standard Mail is not mailed as First-Class Mail® or entered as Periodicals.
3
  The Periodicals class consists of magazines, newspapers, or other publications formed of printed sheets that are
issued at least four times a year from a known office of publication.




                                                             1
Mail Processing Internal Controls at the                                                   NO-AR-06-009
 Dallas Bulk Mail Center



                                The Government Accountability Office (GAO) noted in
                                1999 that effective internal control systems help
                                government managers achieve desired results through
                                effective stewardship of public resources.4 Recent years
                                have seen heightened concern and focus on internal
                                controls because of a series of high-profile business
                                scandals and failures where investors, company
                                personnel, and other stakeholders suffered tremendous
                                losses. In the aftermath were calls for enhanced
                                corporate governance and risk management, with new
                                laws, regulations, and listing standards, such as the 2002
                                Sarbanes-Oxley Act.5

                                Internal controls can help an entity achieve its
                                performance and profitability targets and prevent loss of
                                resources. Controls can help ensure reliable financial
                                reporting and ensure that the enterprise complies with
                                laws and regulations, avoiding damage to its reputation
                                and other consequences. Strong internal controls can
                                help an entity achieve its goals and avoid pitfalls and
                                surprises along the way.

                                The Postal Service has long recognized the importance
                                of effective internal controls and has developed controls
                                to accomplish its goals and objectives. Postal Service
                                internal control guidelines are aligned with the Internal
                                Control-Integrated Framework designed by the COSO.
                                The COSO framework has five components, which are
                                the control environment (management’s attitude and
                                control consciousness); communication; risk
                                management and assessment; control activities; and
                                monitoring. The Postal Service addresses each of these
                                factors in its internal control guidelines.




4
 GAO, Standards for Internal Control in the Federal Government, November 1999.
5
 Enterprise Risk Management — Integrated Framework Executive Summary, September 2004, Committee of
Sponsoring Organizations (COSO) of the Treadway Commission.
http://www.coso.org/publications/executive_summary_integrated_framework.htm




                                                   2
Mail Processing Internal Controls at the                                             NO-AR-06-009
 Dallas Bulk Mail Center




 Objective, Scope,              The audit objective was to assess internal controls over
 and Methodology                mail processing at the Dallas BMC. To assess these
                                controls, we observed mail processing operations;
                                analyzed mail processing and timekeeping reports;
                                conducted a statistical sampling of employee clock rings;
                                reviewed postal instructions, policies, manuals, reports,
                                and procedures; and interviewed Postal Service officials.

                                We relied on Postal Service operational systems,
                                including the web Mail Condition Reporting System
                                (webMCRS), the Vehicle Tracking, Analysis and
                                Performance System (VTAPS), the Timekeeping and
                                Attendance Collection System (TACS), the Electronic
                                Mail Improvement Reporting System, the Sorter Induction
                                Accuracy Test System, and the web Management
                                Operating Data System (webMODS). We did not test the
                                validity of controls over these systems. However, we
                                checked the accuracy of data by confirming our analysis
                                and results with Postal Service managers.

                                We conducted this audit from April through September
                                2006 in accordance with generally accepted government
                                auditing standards and included such tests of internal
                                controls as we considered necessary under
                                the circumstances. We discussed our observations and
                                conclusions with management officials and included their
                                comments where appropriate.

 Prior Audit Coverage           The OIG has not conducted an audit of internal controls
                                over mail processing at the Dallas BMC. However, the
                                Postal Service conducted three prior internal control
                                reviews. These reviews identified internal control
                                deficiencies in mail reporting, color coding, reload vans,
                                loose mail searches, preventive maintenance, and
                                timekeeping. The three prior reviews are as follows.

                                •   Headquarters BMC Operations Review – Dallas Bulk
                                    Mail Center (August 16, 2004) found deficiencies in
                                    staging mail, processing reloaded vans, timekeeping,
                                    color-coding, searching loose mail, operating plans,
                                    and reporting mail volume. This report also identified
                                    efficiency improvements, such as increased use of
                                    equipment and improved staff scheduling.




                                                  3
Mail Processing Internal Controls at the                                            NO-AR-06-009
 Dallas Bulk Mail Center


                                •   Headquarters BMC Operation Review – Re-Audit of
                                    Dallas Bulk Mail Center (November 3, 2004)
                                    concluded that the Postal Service had made little to
                                    no progress on the major findings in the prior report
                                    (noted above).

                                •   Postal Inspection Service Fiscal Year 2004
                                    Observations of Mail Conditions (OMC) (week of
                                    October 6, 2003) found that delayed mail was under-
                                    reported. The report also concluded that VTAPS data
                                    was corrupt, which led to inaccurate reporting on the
                                    status of reloaded vans.




                                                  4
Mail Processing Internal Controls at the                                               NO-AR-06-009
 Dallas Bulk Mail Center


                                           AUDIT RESULTS
 Assessment of Mail              In general, internal controls over mail processing at the Dallas
 Processing Internal             BMC were in place and effective. The Dallas BMC had
 Controls at the                 internal controls in place for recording van reloads, reporting
 Dallas Bulk Mail                bundle breakage and other mailing deficiencies, securing
 Center                          information maintained on computer workstations, recycling
                                 materials, and conducting semiannual safety and health
                                 inspections. However, several mail processing internal
                                 controls needed improvement. Specifically, we found:

                                 •   The webMCRS did not accurately reflect the amount and
                                     age of delayed mail on-hand.

                                 •   Employee time cards were not properly secured, and
                                     employees were not always clocked into the proper
                                     operations.

                                 •   All mail was not correctly color-coded and labeled with the
                                     time and date received.

                                 •   A preventive maintenance schedule for mail processing
                                     equipment did not exist, and loose mail searches were not
                                     conducted as required.

                                 Handbook F-23, Accounting Policy Reference, dated
                                 August 2004, Section 2-9, states the Postal Service is
                                 responsible for establishing and maintaining a system of
                                 management and accounting controls. The Postal Service
                                 also has established criteria on specific internal controls in its
                                 mail processing policies.

                                 These mail processing internal control weaknesses primarily
                                 resulted from insufficient and inconsistent supervision due to
                                 high management turnover.

                                 •   A total of 27 out of 63 mail processing management
                                     positions had been vacated from May 2005 to July 2006 –
                                     a 43 percent turnover. Although the majority of these
                                     positions have been filled, the Dallas BMC has relatively
                                     new managers that are unfamiliar with operations and
                                     staff.

                                 •   The BMC manager started in this new position in
                                     May 2005.



                                                   5
Mail Processing Internal Controls at the                                                                 NO-AR-06-009
 Dallas Bulk Mail Center


                                    These internal control weaknesses may lead to excessive
                                    costs, delayed mail, and incorrect management decisions.

    Delayed Mail                    We found that the amount of delayed mail on-hand was not
    Reporting                       accurately reported in the webMCRS,6 and the date of the
                                    oldest mail was often incorrect.

                                    During June 2006, we analyzed 15 days of data7 and found
                                    that delayed mail was underreported by more than 243,000
                                    mail items, including pieces, bundles, and trays. During this
                                    period, the date of the oldest mail was changed on 1,510 mail
                                    containers by as much as 6 days from the original count
                                    recorded on the Delayed On-Hand Mail Report. We
                                    corroborated this data by our observations. Illustrations 2 and
                                    3 show delayed mail that was not reported in the webMCRS
                                    but was still on-hand during the next processing day.




    Illustration 2: Delayed mail sacks on-hand since June 25, 2006, that had not been
    reported by June 28, 2006, in webMCRS.


6
  The webMCRS is a repository for information on the facility’s mail conditions. These conditions are related to
inventories of delayed mail and on-hand mail. A virtual daily snapshot of mail conditions at facilities throughout the
nation is taken at the end of the processing day. Mail is considered delayed if it is not processed in time to meet its
critical transportation dispatch. The dates of the oldest delayed mail item must also be reported. This information is
entered in the webMCRS and is available to Postal Service officials at all levels for analysis, forecasting, and
planning.
7
  Data were available from 15 days of Delayed On-Hand Reports.




                                                           6
Mail Processing Internal Controls at the                                                 NO-AR-06-009
 Dallas Bulk Mail Center




    Illustration 3: Delayed mail parcels on-hand since June 26, 2006, that had not been
    reported by June 28, 2006 in webMCRS.

                                      Postal Service policy8 requires that mail not meeting critical
                                      transportation dispatch time must be reported as delayed in
                                      the webMCRS. Failure to report all required volumes may
                                      constitute falsification of official records.9 Delayed mail was
                                      not accurately reported because of insufficient training.
                                      Further, this inaccurate reporting was not detected due to
                                      insufficient oversight. Not reporting delayed mail means that
                                      accurate delayed mail volumes and dates of oldest mail were
                                      not available for analysis, forecasting, or planning. During our
                                      audit, Postal Service began taking corrective action in this
                                      area.

    Timekeeping                       We found that electronic time card badges were not secured
                                      and properly controlled. (See Illustration 4.) Also, employees’
                                      time worked was not always recorded in the correct mail
                                      processing operation number.

                                      Handbook F-21, Time and Attendance, Section 133.63, dated
                                      August 2005, states that supervisors are responsible for
                                      controlling employee access to time cards. This weakness
                                      occurred because securing badges was not a priority. As a
                                      result, the Postal Service may incur additional payroll costs as

8
    webMCRS Training/User Guide, dated March 17, 2005.
9
    This matter has been referred to the Office of Investigations.




                                                              7
Mail Processing Internal Controls at the                                                             NO-AR-06-009
 Dallas Bulk Mail Center


                                   a result of employees clocking in earlier or out later than
                                   scheduled times, clocking in other employees, or taking lunch
                                   outside allotted times.




 Illustration 4: Employee time cards from all three tours were unsecured and not under
 management control in the Maintenance area badge rack on April 29, 2006.

 Clock Rings                       Our review of employee clock rings10 projected that about
                                   22 percent11 of employees were working in an operation
                                   that did not match the webMODS operation number.
                                   Handbook F-21, Section 113.11, dated August 2005, states
                                   that the installation head is responsible for accurate entries on
                                   time cards. The Postal Service did not provide the necessary
                                   oversight to ensure that base operation numbers for every
                                   employee were correct in TACS, operation number buttons on
                                   electronic badge readers were labeled correctly to match the
                                   badge reader listing, and employees and supervisors were
                                   properly trained in clocking into the correct operation number.

                                   As a result of these control deficiencies, the Postal Service did
                                   not have accurate information to make staffing and
                                   operational decisions, which may result in increased payroll
                                   costs and less efficient operations.

10
   A clock ring is the time recorded by the electronic badge reader based on employees swiping their time cards
or badges.
11
   This projection was based on a sample of 385 employees, of which we observed 185 employees. Of the
185 employees observed, 41 were not in the correct operation number. Based on a 95 percent confidence
interval, the error rate is 22 percent.




                                                         8
Mail Processing Internal Controls at the                                                              NO-AR-06-009
 Dallas Bulk Mail Center



 Color-Coding                      We found that mail arriving at the facility was not always
                                   properly12 color-coded. We reviewed the June 28 through 30,
                                   2006, Delayed On-Hand Mail Report, which showed that
                                   241 out of 884 containers (27 percent) were not color-coded
                                   properly. Our observations corroborated this condition.
                                   Illustrations 5 and 6 show improperly color-coded mail.




 Illustration 5: June 29, 2006: container not properly color-coded. Instead of the
 standard color-code tag, a piece of blue paper was used to denote that day’s color, but
 no arrival date or time information was recorded.




12
  The Postal Service uses a system of color-coding to facilitate the timely processing, dispatch, and delivery of
Standard Mail to meet established service standards. Color-coding sequences the mail to ensure first-in, first-out
processing. Mail is properly color-coded when it bears a color-code tag showing a date and time the mail arrived at
the facility.




                                                          9
Mail Processing Internal Controls at the                                                       NO-AR-06-009
 Dallas Bulk Mail Center




 Illustration 6: June 29, 2006: several pallets of mail not color-coded. The blue paper
 on this mailing is a mailer-applied routing tag, and not a color-code tag.

                                   The Postal Operations Manual 9, dated July 2002, requires
                                   color-coding of all mail based on the facility’s critical entry
                                   time. Local policy13 further requires that mail arriving before
                                   the facility’s critical entry time receive the color code for that
                                   day, while mail received after this time receives the following
                                   day’s color code. In addition, best practices dictate that the
                                   color tag must show the time and date of arrival.

                                   Mail was not always properly color-coded because of changes
                                   in staff responsibilities for color coding and resistance from
                                   some employees to these changes. Insufficient supervisory
                                   oversight also contributed to this condition. Consequently, the
                                   Postal Service was not ensuring that mail was processed in a
                                   timely manner.




13
     Standard Operating Procedure, Color Code Mail Processing-Dallas BMC, dated May 1, 2005.




                                                        10
Mail Processing Internal Controls at the                                             NO-AR-06-009
 Dallas Bulk Mail Center



 Preventive                      The Dallas BMC did not have a preventive maintenance
 Maintenance                     schedule indicating the time each day that preventive
                                 maintenance was scheduled to be performed on each piece of
                                 mail processing equipment. Illustration 7 shows parcel sorter
                                 container loaders that were in poor working condition because
                                 of inadequate preventive maintenance.

                                 Postal Service Management Instruction AS-530-90-5,
                                 Preventive Maintenance for Mail Processing Equipment,
                                 Section III, Responsibilities, dated April 12, 1990, states, "The
                                 installation head must ensure that maintenance windows are
                                 established and strictly followed." This condition occurred
                                 because the Postal Service did not provide the necessary
                                 oversight to ensure that the Dallas BMC developed and
                                 followed a preventive maintenance schedule.

                                 This weakness may result in costly equipment breakdowns,
                                 high reject rates, low throughputs on mail processing
                                 machines, and the need to replace equipment sooner than
                                 expected.




 Illustration 7: Parcel Sorter Container Loaders were in poor working condition,
 resulting in many that could not be placed in a tilted position. The tilted position helps
 prevent damage to parcels as they are sorted into these containers from mail chutes.




                                                  11
Mail Processing Internal Controls at the                                             NO-AR-06-009
 Dallas Bulk Mail Center



 Loose Mail Searches             We found loose mail that was not cleared for over 24 hours,
                                 indicating mail searches were not being conducted as
                                 required. Illustration 8 shows loose mail that had not been
                                 retrieved after a 24-hour period. Highly mechanized mail
                                 processing facilities such as BMCs use overhead belts to
                                 transport mail. Mail can fall off these belts and become loose
                                 and subsequently deposited on platforms or other surfaces
                                 throughout the facility. This mail should be regularly collected
                                 and returned to mail processing operations.

                                 Management Instruction, AS-530-90-5, Section V, states that
                                 mail searches are part of the daily preventive maintenance
                                 routine. These searches were not being performed because
                                 the Postal Service was not providing the necessary oversight.
                                 Consequently, loose mail may not be processed in a timely
                                 manner and may not meet service standards.




 Illustration 8: Loose mail found on April 29, 2006, that had not been retrieved within
 24 hours, indicating loose mail searches were not conducted as required.




                                                  12
Mail Processing Internal Controls at the                                              NO-AR-06-009
 Dallas Bulk Mail Center




 Postal Service Actions          During the audit, the Postal Service agreed with our findings
                                 and began developing an action plan that addresses the
                                 Dallas BMC’s internal control weaknesses over mail
                                 processing. Specifically, the Dallas BMC:

                                           •   Revised their standard operating procedure for
                                               reporting delayed mail.

                                           •   Began daily verifications to ensure employee
                                               badges are secured and under management
                                               control.

                                           •   Reissued the policy on color coding and assigned
                                               responsibility to specific managers.

 Recommendations                 We recommend the Manager, Dallas Bulk Mail Center:

                                     1. Ensure the web Mail Condition Reporting System
                                        accurately reflects the amount of delayed mail on-hand.

                                     2. Secure and control employee time cards.

                                     3. Ensure employees’ time worked is recorded in the
                                        proper operation numbers by correcting button labels
                                        on the electronic badge reader; base operations
                                        numbers are correct for all employees; and employees
                                        and supervisors are trained in time recording
                                        procedures.

                                     4. Ensure Standard Mail is properly color-coded and
                                        labeled with the time and date received.

                                     5. Develop and follow a preventive maintenance schedule
                                        for mail processing equipment.

                                     6. Conduct loose mail searches as required.




                                                     13
Mail Processing Internal Controls at the                                            NO-AR-06-009
 Dallas Bulk Mail Center


 Management’s                    Management agreed with our findings and recommendations.
 Comments                        Management began corrective actions during the audit to
                                 address mail condition reporting, security, timekeeping, color-
                                 coding, maintenance and loose mail. They also plan to
                                 implement a follow-up program to ensure correction of the
                                 identified internal control deficiencies.

 Evaluation of                   Management’s comments are responsive to our
 Management’s                    recommendations. Management’s actions, taken or planned,
 Comments                        should correct the issues identified in the report.




                                                  14
Mail Processing Internal Controls at the                                                                   NO-AR-06-009
 Dallas Bulk Mail Center




                                                APPENDIX A

 SOUTHWEST CUSTOMER SERVICE DISTRICTS BY THREE-DIGIT ZIP
                     CODE AREA



Southwest Area
Customer Service Districts                         Fort Worth                      Oklahoma                Arkansas
                                           739,760-764,768,769,790-796   730,731,734-738,740,741,743-749    716-729




                                                                                                                    Dallas
                                                                                                                   750-759




     Albuquerque
  865,870-875,877-884



                                                                                                           Louisiana
                                                                                                    700,701,703-708,710-714
                                  Rio Grande
                        733,765-767,779-789,797-799,885                                  Houston
                                                                                         770-778




Source: U.S. Postal Service Blue Pages




                                                           15
Mail Processing Internal Controls at the           NO-AR-06-009
 Dallas Bulk Mail Center


                APPENDIX B MANAGEMENT’S COMMENTS




                                           16
Mail Processing Internal Controls at the        NO-AR-06-009
 Dallas Bulk Mail Center




                                           17
Mail Processing Internal Controls at the        NO-AR-06-009
 Dallas Bulk Mail Center




                                           18
